                         OFFICE OF INSPECTOR GENERAL

SEMIANNUAL REPORT TO CONGRESS

          O C TO B E R 1 , 2 01 3 , T H R O U G H M A R C H 3 1 , 2 01 4




 T
         he mission of the Office of Inspector General (OIG) is to prevent and detect fraud,
         waste, and abuse and to promote the integrity, economy, efficiency, and effective­
         ness in the critical programs and operations of the U.S. Securities and Exchange
 Commission (SEC or agency). This mission is best achieved by having an effective, vigor­
 ous, and independent office of seasoned and talented professionals. Those individuals carry
 out the OIG’s mission by performing these functions:

 •	   conducting independent and objective audits, evaluations, inspections, investigations,
      and other reviews of SEC programs and operations;
 •	   preventing and detecting fraud, waste, abuse, and mismanagement in SEC programs
      and operations;
 •	   identifying vulnerabilities in SEC systems and operations and recommending
      constructive solutions;
 •    offering expert assistance to improve SEC programs and operations;
 •	   communicating timely and useful information that facilitates management decision
      making and the achievement of measurable gains; and
 •	   keeping the Congress and the Commission fully and currently informed of significant
      issues and developments.




                                                   O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   i
                                  CONTENTS


MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . 1


MANAGEMENT AND ADMINISTRATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Agency Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OIG Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


CONGRESSIONAL REQUESTS AND BRIEFINGS . . . . . . . . . . . . . . . . . . . . . . . . 4


OIG ADVICE AND ASSISTANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
OIG Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Employee Suggestion Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Other Advice and Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


COORDINATION WITH OTHER OFFICES OF INSPECTOR GENERAL . . . . . . . . . . . . . 7


AUDITS AND EVALUATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Audits and Evaluations Conducted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Controls Over the SEC’s Government Purchase Card Program
        (Report No. 517) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Federal Information Security Management Act:
        Fiscal Year 2013 Evaluation (Report No. 522) . . . . . . . . . . . . . . . .       . . . . . 10
    Inspector General’s Report of the SEC’s Fiscal Year 2013
        Compliance with the Improper Payments Information Act . . . . . . . . .            .   .   .   .   . 11
Pending Audits and Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . .     .   .   .   .   . 11
    Review of the SEC’s Practices for Sanitizing Digital Information System Media .        .   .   .   .   . 11
    Audit of the SEC’s Physical Security Program . . . . . . . . . . . . . . . . . . .     .   .   .   .   . 11
    Audit of Controls Over the SEC’s Inventory of Laptop Computers . . . . . . .           .   .   .   .   . 12
Terminated Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   . 12
    Termination of Assessment of the SEC’s Hiring Practices for
        Senior Level Positions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




                                                      O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4            |   iii
         INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
         Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   . 13
         Status of Previously Reported Investigations . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   . 13
             Allegations of Prohibited Personnel Practices (Report No. OIG-586) . . . . . .         .   .   .   .   . 13
             Violations of SEC Ethics Rules (Report No. OIG-594) . . . . . . . . . . . . . .        .   .   .   .   . 14
         Investigations Conducted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   . 14
             Allegations of Improper Disclosure of Nonpublic and Personally
                  Identifiable Information by an SEC Contractor (Case No. OIG-574) . . . .          . . . . . 14
             Violations of SEC Supplemental Ethics Rules by an SEC Staff Accountant
                  (Case No. OIG-585) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      . . . . . 14
             False Statements Related to Prohibited Financial Holdings (Case No. OIG-598)           . . . . . 15
             Departing SEC Employee’s Attempt to Remove Nonpublic Information
                  From the SEC (Case No. OIG-600) . . . . . . . . . . . . . . . . . . . . .         . . . . . 15
             Unauthorized Disclosure of Nonpublic Information From
                  Executive Session Commission Meeting (Case No. OIG-601) . . . . . . . .           . . . . . 16
             Former SEC Employee’s Possession of SEC Documents Containing
                  Nonpublic Information (Case No. OIG-610) . . . . . . . . . . . . . . . .          . . . . . 16


         REVIEW OF LEGISLATION AND REGULATIONS. . . . . . . . . . . . . . . . . . . . . . . . 17


         MANAGEMENT DECISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
         Status of Recommendations With No Management Decisions            . . . . . . . . . . . . . . . . . 18
         Revised Management Decisions . . . . . . . . . . . . . . . .      . . . . . . . . . . . . . . . . . 18
         Agreement With Significant Management Decisions . . . . . .       . . . . . . . . . . . . . . . . . 18
         Instances Where the Agency Refused or Failed to Provide
              Information to the OIG . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . . . . . . 18




iv   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
TABLES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Table 1 List of Reports: Audits and Evaluations. . . . . . . . . . . . .     . . . . . . . . . . . . 19

Table 2 Reports Issued With Costs Questioned or Funds Put to

             Better Use (Including Disallowed Costs) . . . . . . . . . .     . . . . . . . . . . . . 19

Table 3 Reports With Recommendations on Which Corrective Action

             Has Not Been Completed. . . . . . . . . . . . . . . . . .       . . . . . . . . . . . . 20

Table 4 Summary of Investigative Activity for the Reporting Period of

             October 1, 2013 to March 31, 2014 . . . . . . . . . . . .       . . . . . . . . . . . . 21

Table 5 References to Reporting Requirements of the

             Inspector General Act . . . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . 22



APPENDIX A. PEER REVIEWS OF OIG OPERATIONS . . . . . . . . . . . . . . . . . . . . . 23

Peer Review of the SEC OIG’s Audit Operations . . . . . . . . . . . . . . . . . . . . . . . . 23

Peer Review of the SEC OIG’s Investigative Operations . . . . . . . . . . . . . . . . . . . . . 23





                                                      O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4     |   v
             ABBREVIATIONS


Act           The Government Charge Card Abuse Prevention Act of 2012
AFR           Agency Financial Report
Agency        U.S. Securities and Exchange Commission
CIGFO         Council of Inspectors General on Financial Oversight
CIGIE         Council of the Inspectors General on Integrity and Efficiency
Dodd-Frank    Dodd-Frank Wall Street Reform and Consumer Protection Act
DOJ           Department of Justice
EEOC          U.S. Equal Employment Opportunity Commission
FAEC          Federal Audit Executive Council
FASB          Financial Accounting Standards Board
FINRA         Financial Industry Regulatory Authority
FISMA         Federal Information Security Management Act
FTE           full-time equivalents
FY            fiscal year
GAGAS         Generally Accepted Government Auditing Standards
IG            Inspector General
IPIA          Improper Payments Information Act
JOBS Act      Jumpstart Our Business Startups Act
LSC           Legal Services Corporation
MSRB          Municipal Securities Rulemaking Board
OA            Office of Acquisitions
OIG           Office of Inspector General
OMB           Office of Management and Budget
ORMS          Office of Records Management Services
OSO           Office of Support Operations
PCAOB         Public Company Accounting Oversight Board
PIV           Personal Identity Verification
SEC           U.S. Securities and Exchange Commission
SIPC          Securities Investor Protection Corporation
SO            Senior Officer
USAO          United States Attorney’s Office




                                    O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   vii
The OIG leadership team
continues to review and
strengthen the OIG’s
internal processes and
procedures to ensure that
we are an effective,
responsive entity.
                           MESSAGE FROM THE

                          INSPECTOR GENERAL



                                  I
                                        am pleased to present this Semiannual Report to Con­
                                        gress as Inspector General (IG) of the SEC. This report
                                        describes the work of the SEC OIG from October 1, 2013,
                                  to March 31, 2014. It also reflects our responsibility to report
                                  independently to both the Congress and the Commission. The
                                  audits, evaluations, and investigations that we describe illus­
                                  trate the OIG’s efforts to promote the efficiency and effective­
                                  ness of the SEC and demonstrate the impact that our work has
                                  had on the programs and operations of the agency.

During this semiannual reporting period, I com­           with the Commission to ensure that the OIG has the
pleted my first full year as the SEC IG. When I           necessary resource levels to do so.
arrived in February 2013, the SEC OIG had been
operating with several staffing deficiencies. We filled   The OIG leadership team continues to review
two key senior positions during the first half of the     and strengthen the OIG’s internal processes and
year and, during this half, we hired a senior leader      procedures to ensure that we are an effective,
responsible for overseeing the OIG’s audits, evalua­      responsive entity. To that end, we have formed
tions, and special projects. With the pillar leadership   a team of investigative analysts whose role is to
in place, the OIG has begun to hire the auditors          receive, track, and triage all complaints we receive
and investigators needed to fill shortages within our     and also to assist our investigators in collecting and
various functions. Rebuilding the OIG staff will          analyzing data to support the OIG’s investigations.
enhance the OIG’s ability to achieve its mission, and     The OIG also issued an updated audit manual with
I will continue to work closely with the SEC to add       procedures designed to increase planning and audit
OIG staff during the coming months. I am commit­          management involvement during all phases of our
ted to carrying out the OIG’s statutory oversight of      audits. Further, the OIG plans to implement a team
the SEC’s programs and operations and will work           approach to auditing, which will increase audit




                                                           O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   1
quality and efficiency. We continue to improve our       Additionally, the OIG implemented its SEC out­
business support processes as we strive for increased    reach program during this reporting period. To
efficiencies and responsiveness. In addition, we         date, OIG managers and I have visited 10 of the 11
developed an OIG employee onboarding program             SEC regional offices and have met with the Office
and issued an OIG training and development policy.       of the Chief Operating Officer. We plan to visit
                                                         the remaining regional office and other headquar­
During this reporting period, the Office of Audits       ters offices in the near future. The OIG’s outreach
issued two reports. On March 28, 2014, we issued         presentation is now included in the SEC’s biweekly
a report entitled “Controls Over the SEC’s Gov­          new employee orientation sessions. These outreach
ernment Purchase Card Program.” That report              efforts will increase the OIG’s visibility and further
details our audit of the SEC’s purchase card and         enhance SEC employees’ understanding of the role
convenience check operations and practices under         and functions of the OIG. They will also serve to
the Government Charge Card Abuse Prevention              educate employees on the applicable ethics require­
Act of 2012. Also, on March 31, 2014, we issued          ments and their obligations to report fraud, waste,
“Federal Information Security Management Act             and abuse to the appropriate authorities.
(FISMA): Fiscal Year 2013 Evaluation,” which is
our assessment of the SEC’s fiscal year (FY) 2013        In closing, I want to emphasize my firm com­
implementation of information security require­          mitment to executing the SEC OIG’s mission of
ments under FISMA.                                       promoting the integrity, efficiency, and effectiveness
                                                         of the programs and operations of the SEC and to
The SEC OIG Office of Investigations completed           reporting our findings and recommendations to
seven investigations during this reporting period on     the Congress and the Commission. The OIG will
various topics, including the disclosure, possession,    improve its efficiency and effectiveness by continu­
or removal from the SEC, of nonpublic informa­           ing to make organizational and procedural changes
tion; false statements about prohibited financial        and by increasing its staffing resources. We will
holdings; and violations of SEC Supplemental             also continue to work collaboratively with SEC
Ethics Rules. Our investigations resulted in eight       management to assist the agency in addressing
referrals to the Department of Justice (DOJ), and        the challenges it faces in its unique and important
the DOJ accepted two of those referrals for possible     mission of protecting investors, maintaining fair,
prosecution. We also issued an investigative memo­       orderly, and efficient markets, and facilitating
randum recommending specific improvements that           capital formation.
the agency could make in its policies and proce­
dures for the SEC employee exit process.                 I appreciate the significant support that the OIG
                                                         has received from the Congress and the Com­
The Office of Audits and the Office of Investiga­        mission. We look forward to continuing to work
tions also worked with SEC management to close           closely with the SEC Chair, Commissioners, and
27 recommendations made in OIG reports issued            employees, as well as the Congress, to increase
during this and previous semiannual reporting            efficiency and effectiveness in the SEC’s programs
periods.                                                 and operations.




                                                                                 Carl W. Hoecker
                                                                                 Inspector General




2   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                            MANAGEMENT AND

                             ADMINISTRATION


AGENCY OVERVIEW                                           funds and other private funds, more than 1,000



T
         he SEC’s mission is to protect investors,        municipal advisors, 10 registered credit rating agen­
         maintain fair, orderly, and efficient markets,   cies, and 7 registered clearing agencies. And, the
         and facilitate capital formation. The SEC        agency has nearly 100 new rulemaking responsibili­
strives to promote a market environment that is           ties under the Dodd-Frank Wall Street Reform and
worthy of the public’s trust and characterized by         Consumer Protection Act (Dodd-Frank) and the
transparency and integrity. Its core values consist of    Jumpstart Our Business Startups Act (JOBS Act).
integrity, accountability, effectiveness, teamwork,
fairness, and commitment to excellence. The SEC’s         The SEC accomplishes its mission through 5 main
goals are to foster and enforce compliance with the       divisions—Corporation Finance, Enforcement,
Federal securities laws; establish an effective regula­   Investment Management, Trading and Markets,
tory environment; facilitate access to the information    and Economic and Risk Analysis—and 21 func­
investors need to make informed investment deci­          tional offices. The SEC’s headquarters is in Wash­
sions; and enhance the SEC’s performance through          ington, DC, and there are 11 regional offices located
effective alignment and management of human               throughout the country. As of the end of FY 2013,
resources, information, and financial capital.            the SEC employed 4,023 fulltime equivalent (FTE)
                                                          employees, consisting of 3,903 permanent and 120
The agency currently oversees over 11,000 invest­         temporary FTE employees.
ment advisers, almost 10,000 mutual funds,
4,450 broker-dealers, 450 transfer agents, as well        OIG STAFFING
as the Public Company Accounting Oversight                In January 2014, the IG appointed a Deputy IG
Board (PCAOB), the Financial Industry Regula­             for Audits, Evaluations, and Special Projects. The
tory Authority (FINRA), the Municipal Securities          Deputy IG’s biography is on the OIG’s website at
Rulemaking Board (MSRB), the Securities Investor          www.sec.gov/about/offices/oig/inspector_
Protection Corporation (SIPC), and the Financial          general_admin_bios.shtml. During this reporting
Accounting Standards Board (FASB). The SEC also           period, the OIG also hired eight other employees—
has responsibility for reviewing the disclosures and      three criminal investigators, three auditors, and two
financial statements of approximately 9,000 report­       investigative analysts. Although the OIG is making
ing companies. The agency has new or expanded             progress towards operating at full capacity, filling
responsibilities over the derivatives markets, an         other vacancies remains a priority for the OIG.
additional 2,500 exempt reporting advisers to hedge


                                                           O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   3
                 CONGRESSIONAL REQUESTS

                     AND BRIEFINGS



T
        he OIG continued to keep the Congress fully      whether any of the SEC’s personnel practices have
        and currently informed of the OIG’s activi­      created a discriminatory workplace or otherwise
        ties through briefings, reports, meetings,       systematically disadvantaged minorities from
and correspondence. Throughout the semiannual            obtaining senior management positions. The OIG
reporting period, OIG staff briefed Congressional        provided a preliminary response acknowledging
staff and discussed with them OIG work and issues        the request on March 28, 2014, and sent a simi­
impacting the SEC.                                       lar notification to the applicable Committee and
                                                         Subcommittee Chairmen on March 31, 2014. As of
In addition, on March 24, 2014, several members          the end of the semiannual reporting period, the OIG
of the U.S. House of Representatives Committee on        was continuing to review the request and plans to
Financial Services requested that the OIG review         address it during the next reporting period.




4   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                                OIG ADVICE AND

                                  ASSISTANCE



T
         he OIG advises and assists the SEC in vari­     tively in identifying the most important areas for the
         ous ways. For one, the OIG maintains an         OIG’s work, as well as the best means of addressing
         open line of communication with the Com­        the results of that work. The OIG continually strives
mission and management officials through meet­           to keep apprised of changes to agency programs
ings and conversations. Also, the OIG has begun          and operations and will keep SEC management
“outreach” efforts through visits to different SEC       informed of the OIG’s activities and concerns raised
offices to explain the OIG’s function as it relates to   in the course of its work.
the responsibilities of SEC employees.
                                                         The OIG also implemented its SEC outreach
In addition, the OIG advises and assists the agency      program during this reporting period. The goal of
on various matters through memoranda and cor­            this program is to increase the OIG’s visibility and
respondence, as well as verbal communications.           further enhance SEC employees’ understanding of
For example, during this reporting period, the           the OIG’s role and function. The program is also
OIG 1) relayed information to SEC management             designed to educate employees on the applicable
for possible action in response to its evaluation of     ethics requirements and their obligations to report
employee suggestions; and 2) alerted SEC manage­         fraud, waste, and abuse to the appropriate authori­
ment about unsecured sensitive files located on an       ties. During this semiannual reporting period, the
internal network drive.                                  IG and OIG managers visited 10 of the 11 SEC
                                                         regional offices and met with the Office of the
OIG OUTREACH                                             Chief Operating Officer. The OIG plans to visit the
During this semiannual reporting period, the IG          remaining regional office and other headquarters
regularly met with the SEC Chair and Commission­         offices in the near future. Additionally, the OIG’s
ers and senior officers from various SEC divisions       outreach presentation is now included in the SEC’s
and offices to foster open communication at all lev­     biweekly new employee orientation sessions.
els between the OIG and the agency. These efforts
ensure that the OIG is kept up to date on signifi­       EMPLOYEE SUGGESTION PROGRAM
cant, current matters that are relevant to the OIG’s     During this 6-month reporting period, the OIG
work. This regular communication also allows the         received eight suggestions and three allegations
OIG and agency management to work coopera­               through the OIG SEC Employee Suggestion




                                                          O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   5
Program. The OIG received responses from the             OTHER ADVICE AND ASSISTANCE
agency for seven suggestions that we submitted to        During the ongoing evaluation of controls over the
the agency for its review during this and previous       SEC’s media sanitization practices, an information
reporting periods.                                       technology security firm, under contract with the
                                                         OIG, found instances of unsecured sensitive and
In two instances, regional office employees sug­         nonpublic information on a network drive that
gested that the agency could decrease the costs of       could be fully accessed by all SEC network users.
creating and maintaining hard-copy documents             To address the risk that such information could be
within the Division of Enforcement. The employ­          improperly released and possibly harm the agency,
ees stated that the Division required employees to       the OIG notified SEC management of the risk posed
maintain correspondence or other documents in            by the unsecured, broadly accessible information on
hard-copy (paper) format. The employees suggested        that drive. Management took immediate correc­
that instead of maintaining hard copies, documents       tive action by disabling the drive, pending further
could be digitally scanned and archived, eliminating     review by the Office of Information Technology
the need for paper copies. In response, the agency       (OIT). However, when verifying the effectiveness of
stated that it would provide additional guidance         management’s corrective actions, we identified, and
about the Division’s record retention require­           brought to management’s attention, another issue
ments, including specific guidance explaining that       pertaining to unsecured folders on the network.
employees are not required to maintain records in        When notified, management began to address this
any particular media or maintain duplicate copies        additional issue. We will update the agency’s prog­
of records. The agency also indicated that it would      ress in the media sanitization report.
provide informational sessions to employees about
records retention policies and requirements.




6   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
         COORDINATION WITH OTHER

        OFFICES OF INSPECTOR GENERAL



D
         uring this semiannual reporting period, the     The SEC IG also attended meetings of the Council
         SEC OIG coordinated its activities with         of the Inspectors General on Integrity and Efficiency
         those of other OIGs, pursuant to Section        (CIGIE) and continues to serve as the Chairman of
4(a)(4) of the Inspector General Act of 1978, as         the CIGIE Investigations Committee. The mission of
amended.                                                 the Investigations Committee is to advise the Inspec­
                                                         tor General community on issues involving criminal
Specifically, the OIG participated in the meetings and   investigations and criminal investigations personnel
activities of the Council of Inspectors General on       and to establish criminal investigative guidelines.
Financial Oversight (CIGFO), which was established
by Dodd-Frank. The chairman of CIGFO is the IG           In addition, the Office of Audits continues to par­
of the Department of the Treasury. Other members         ticipate in various CIGIE activities. For example, a
of the Council, in addition to the IGs of the SEC and    representative of the Office of Audits is a member
Treasury, are the IGs of the Board of Governors of       of a working group that is revising the “Guide for
the Federal Reserve System, the Commodity Futures        Conducting External Peer Reviews of the Audit
Trading Commission, the Department of Hous­              Organizations of Federal Offices of Inspector
ing and Urban Development, the Federal Deposit           General.” Office of Audits staff also participated
Insurance Corporation, the Federal Housing Finance       in activities of the CIGIE Federal Audit Executive
Agency, the National Credit Union Administra­            Council (FAEC), including serving on the FAEC’s
tion, and also the Special Inspector General for         Audit Policies and Practices Committee and attend­
the Troubled Asset Relief Program. As required by        ing training that FAEC provided.
Dodd-Frank, CIGFO meets at least once every 3
months. At the CIGFO meetings, the members share         Moreover, the Office of Audits assisted two other
information about their ongoing work, with a focus       Federal agency OIGs that were “benchmarking”
on concerns that may apply to the broader financial      certain of their agencies’ practices to the business
sector and ways to improve financial oversight. Fur­     practices of other agencies, including the SEC.
ther, the SEC OIG’s Office of Audits participated in     Specifically, the Office of Audits gathered and
a CIGFO working group that is assessing the extent       provided information on 1) the SEC’s practices
to which the operations of the Financial Stability       for revising its written policies and procedures
Oversight Council are consistent with the expecta­       governing its internal functions to assist an OIG
tions outlined in its transparency policy.               with reviewing its agency’s process for internal




                                                          O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   7
management directives; and 2) the SEC’s methods          Lastly, the Counsel to the IG participated in the
for allocating and managing its investor protec­         activities of the Council of Counsels to the Inspec­
tion resources to assist another OIG in reviewing        tors General, and the SEC Legislative and External
its agency’s management of consumer protection           Affairs Counsel continued to participate in the
resources.                                               CIGIE External Affairs liaisons’ group and hosted a
                                                         quarterly meeting.




8   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                                     AUDITS AND

                                    EVALUATIONS


OVERVIEW                                                 AUDITS AND EVALUATIONS


T
        he OIG Office of Audits conducts, coordi­        CONDUCTED
        nates, and supervises independent audits
        and evaluations of the agency’s programs         Controls Over the SEC’s Government
and operations at the SEC’s headquarters and 11          Purchase Card Program (Report No. 517)
regional offices. The Office of Audits also hires,       The SEC OIG conducted an audit of the SEC’s pur­
as needed, contractors and subject matter experts,       chase card program. Government purchase cards,
who provide technical expertise in specific areas, to    by their nature, are at risk for misuse, fraud, waste,
perform work on behalf of the OIG. In addition, the      and abuse. The Government Charge Card Abuse
Office of Audits monitors the SEC’s progress in          Prevention Act of 2012 (Act) requires executive
taking corrective actions on recommendations in          agencies that issue and use purchase cards to “estab­
OIG audit and evaluation reports.                        lish and maintain safeguards and internal controls”
                                                         over their usage. The Act further requires the IG of
Each year, the Office of Audits prepares an annual       each executive agency to conduct, at a minimum,
audit plan. The plan includes work that the Office       annual assessments of the agency’s purchase card
selects for audit or evaluation on the basis of risk     program and to perform analyses or audits, as neces­
and materiality, known or perceived vulnerabilities      sary, of purchase card transactions. The Act also
and inefficiencies, resource availability, and infor­    requires IGs to report to the Director of the Office
mation received from the Congress, SEC staff, the        of Management and Budget (OMB) 120 days after
GAO, and the public.                                     the end of each fiscal year on their agencies’ progress
                                                         in implementing OIG audit recommendations made
The Office conducts audits in compliance with            to address the findings of any analysis or audit of
Generally Accepted Government Auditing Standards         the agency’s purchase card program. We issued the
(GAGAS) issued by the Comptroller General of the         required report to the OMB on January 27, 2014,
United States. OIG evaluations follow applicable         stating that we were in the process of auditing the
CIGIE Quality Standards for Inspections and Evalu­       SEC’s purchase card program.
ations and GAGAS standards. At the completion
of an audit or evaluation, the OIG issues an inde­       We conducted a risk assessment of the SEC’s pur­
pendent report in which it identifies deficiencies and   chase card program and determined an overall risk
makes recommendations to correct those deficiencies      level of “moderate,” and we issued our final audit
or increase efficiencies in an SEC program.              report on March 28, 2014. We found that the SEC


                                                          O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   9
Office of Acquisitions (OA), which is responsible for   management agreed to implement all of the
the management of the SEC’s purchase card pro­          report’s recommendations. The OIG’s report
gram, has established internal controls that reduce     is available on its website at www.sec.gov/oig/
the risk of fraud, waste, and abuse in the use of       reportspubs/2014/517.pdf.
purchase cards and convenience checks. Moreover,
we did not find instances of illegal or erroneous use   Also, the OIG’s January 27, 2014, letter report to
of purchase cards or convenience checks, although       the OMB is available on its website at www.sec.
we did determine that certain areas of the program      gov/oig/reportspubs/purchasecardabusepreven­
needed strengthening. Specifically, we found the        tion_012714.pdf.
following:
                                                        Federal Information Security
•	   purchase cardholders and approving officials       Management Act: Fiscal Year 2013
     did not complete or properly document all          Evaluation (Report No. 522)
     required training;                                 FISMA provides a comprehensive framework
•	   controls over purchase card and convenience        to ensure the effectiveness of security controls
     check transactions needed improvement;             over information resources that support Federal
•	   the OA did not always adjust monthly credit        operations and assets. FISMA also requires IGs to
     limits as necessary or meet all requirements of    annually assess the effectiveness of agency informa­
     the Act;                                           tion security programs and practices and report the
•	   purchase cardholders and approving officials       results to the OMB. The overall objective of the FY
     did not timely reconcile purchases with bank       2013 FISMA evaluation was to assess the SEC’s
     information;                                       information systems and information security pos­
•	   the OA did not develop a charge card man­          ture. The OIG contracted the services of Network­
     agement plan and other information for the         ing Institute of Technology, Inc. (collectively referred
     agency’s reporting to the OMB; and                 to as “we” and “our”) to conduct the evaluation.
•	   the OA did not review bank rebates for accu­
     racy or verify that they were properly recorded.   To assess the SEC’s security controls over its infor­
                                                        mation systems and information security posture,
In September 2012, the OA assigned a new Agency/        we reviewed the security assessment packages for
Organization Program Coordinator, who has taken         seven of the SEC’s major information systems (five
steps to improve the SEC’s purchase card program.       internally hosted systems and two externally hosted
During our audit, the Coordinator identified and        systems). The scope of our review consisted of the
reported to management many of the deficiencies         following 11 areas specified in the OMB’s FY 2013
that we observed. However, additional management        FISMA reporting instructions:
attention is warranted to ensure that the SEC’s safe­
guards and internal controls over purchase card and     1.	     continuous monitoring management;
convenience check use are adequate and effective.       2.	     configuration management;
                                                        3.	     identity and access management;
To improve the SEC’s controls over its purchase         4.	     incident response and reporting;
card program, we made 11 recommendations. The           5.	     risk management;
recommendations address training; controls over         6.	     security training;
transactions; requirements of the Act; controls over    7.	     plan of action and milestones;
monthly purchase limits; reconciliations with           8.	     remote access management;
bank information; and reviews of rebates. SEC           9.	     contingency planning;




10   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
10. contractor systems; and                              The OIG’s letter report is available on its website
11. security capital planning.                           at www.sec.gov/about/offices/oig/reports/reppubs/
                                                         other/2013_iperareport.pdf.
The OIG issued a final report to the agency on
March 31, 2014. To strengthen the SEC’s controls
over information security, we reiterated that the        PENDING AUDITS AND EVALUATIONS
OIT should take immediate action to address the
outstanding recommendations from the OIG’s FY            Review of the SEC’s Practices for Sanitizing
2011 and 2012 FISMA reports. We also made nine           Digital Information System Media
new recommendations for corrective action regard­        The SEC generates and collects commercially
ing contractor systems, multi-factor authentication,     valuable, market sensitive, proprietary, and other
user accounts, and configuration management. In          nonpublic information. To safeguard against unau­
response to a draft of our report, SEC management        thorized disclosure of such information, the National
concurred with eight of the nine recommendations         Institute of Standards and Technology recommends
and described corrective actions that management         that Federal agencies sanitize digital information
planned to take. SEC management did not concur           system media before its disposal or release outside
with the remaining recommendation, but nonethe­          the organization. Further, the SEC requires that the
less did take actions to address the issue. A summary    agency’s digital information system media, including
of the OIG’s report is available on its website at       hard drives, compact discs, and data tapes used to
www.sec.gov/oig/reportspubs/522.pdf.                     process and store information, be sanitized before
                                                         disposal. Effective sanitization minimizes the risk of
Inspector General’s Report of the                        inadvertent releases of information that are poten­
SEC’s Fiscal Year 2013 Compliance with the               tially damaging to the agency, its employees and con­
Improper Payments Information Act                        tractors, and those entities that the SEC regulates.
On February 24, 2014, the SEC OIG reported the           To determine whether the SEC effectively sanitizes
results of its review of the SEC’s compliance with the   surplus media before its disposal, the OIG hired a
Improper Payments Information Act of 2002 (IPIA)         contractor to evaluate the agency’s media sanitiza­
for FY 2013. To determine whether the SEC com­           tion practices.
plied with IPIA, we reviewed the SEC’s “Improper
Payments Elimination and Recovery Improvement            The contractor has completed its fieldwork and is
Act of 2012 Risk Assessment Summary Report,”             drafting a report. We expect to issue a final report
dated June 16, 2013; documentation supporting            summarizing the contractor’s findings during the
that report; and relevant disclosures in the SEC’s FY    next semiannual reporting period.
2013 Agency Financial Report (AFR), dated Decem­
ber 12, 2013. The result of the SEC’s risk assessment    Audit of the SEC’s Physical
was that none of the SEC’s programs and activities       Security Program
are susceptible to significant improper payments.        The OIG has hired a contractor to audit the SEC
Further, the AFR stated that the SEC had determined      Office of Support Operations’ (OSO) controls for
that implementing a payment recapture program            safeguarding SEC personnel and property under its
would not be cost effective, but that it nonetheless     physical security program. Specifically, the audit will
strives to recover overpayments that it has identi­      examine (1) the OSO’s compliance with governing
fied through other sources. Given our review of the      physical security laws and regulations and the SEC’s
information described above, we determined that          policies and procedures; (2) the effectiveness of the
the SEC was in compliance with IPIA for FY 2013.         SEC’s physical security policies and procedures; and




                                                         O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   11
(3) the adequacy of preventive internal control         The OIG is conducting this audit to evaluate the
procedures and practices for overseeing physical        effectiveness of the OIT’s inventory program and
security at SEC facilities.                             its controls over laptops. The audit will focus
                                                        on the OIT’s policies and procedures governing
The contractor has completed its fieldwork and is       the inventory and accountability for laptops, the
drafting the audit report. We expect to issue a final   accuracy and completeness of the current inventory,
report summarizing the contractor’s findings during     procedures for reporting lost or stolen laptops, and
the next semiannual reporting period.                   controls over information systems used to track the
                                                        laptop inventory.
Audit of Controls Over the SEC’s
Inventory of Laptop Computers                           We expect to issue a final audit report during the
Employees and contractors of the SEC use laptop         next semiannual reporting period.
computers, some of which store sensitive, nonpub­
lic information, to support the agency’s mission.
In Inspection Report No. 441, “Controls Over            TERMINATED AUDIT
Laptops,” March 31, 2008, the OIG found that the
SEC’s property management guidance did not              Termination of Assessment of the
identify laptops as sensitive property and that the     SEC’s Hiring Practices for Senior Level
OIT did not have effective accountability for           Positions
laptops. In addition, the OIG found that an SEC-        In 2011, the OIG initiated an audit of the SEC’s
wide inventory of laptops had not been performed        practices for hiring senior level officials. The audit
since 2003. Finally, because there was no baseline      objectives included examining whether the SEC
inventory of laptops, the OIG was unable to trace       Office of Human Resources adheres to applicable
custody of laptops to specific individuals.             Federal statutes and regulations; ensures that the
                                                        SEC carries out its hiring and promotion practices
In its 2008 report, the OIG made five recommenda­       in accordance with applicable statutes, regulations,
tions to strengthen controls over the SEC’s laptop      and requirements; and adequately and timely com­
inventory, and SEC management concurred that            municates to responsible officials its hiring author­
its accountability for laptops needed improve­          ity, decisions, and changes.
ment. In August 2013, the OIG Office of Inves­
tigations referred information learned through an       During the course of this audit, the Office of
ongoing investigation of stolen SEC laptops to the      Human Resources revised its hiring practices. In
OIG Office of Audits. The investigation revealed        addition, we did not test data after March 31,
that the OIT did not maintain accurate inventory        2012. To make the best use of our limited resources
records to properly track laptops.                      and in light of the changes that the Office of
                                                        Human Resources has made, we have terminated
                                                        this audit. We will use the information that we
                                                        have collected during this audit, as appropriate, in
                                                        other ongoing and planned audits or evaluations.




12   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                                 INVESTIGATIONS


OVERVIEW                                                  grams and operations. The Hotline allows individu­



T
         he OIG Office of Investigations investigates     als to report their allegations to the OIG directly
         allegations of criminal, civil, and adminis­     and confidentially.
         trative violations relating to SEC programs
and operations by SEC employees, contractors, and
outside entities. These investigations may result in      STATUS OF PREVIOUSLY
criminal prosecutions, fines, civil penalties, adminis­   REPORTED INVESTIGATIONS
trative sanctions, and personnel actions.
                                                          Allegations of Prohibited Personnel
The Office of Investigations adheres to the CIGIE         Practices (Report No. OIG-586)
Quality Standards for Investigations and applicable       As reported in our previous Semiannual Report,
guidelines that the U.S. Attorney General issues. The     the OIG investigated allegations that certain SEC
Office of Investigations continues to enhance its sys­    senior officers had violated merit system principles
tems and processes to meet the demands of the OIG         and committed prohibited personnel practices by
and to provide high quality investigative work.           hiring former colleagues. The OIG did not identify
                                                          evidence that SEC senior officers intended to pro­
Investigations require extensive collaboration with       vide an improper advantage or preference in hiring.
separate SEC OIG component offices, other SEC             However, the OIG found that language in some of
divisions and offices, and outside agencies, as well      the documents that one senior officer had prepared
as coordination with the DOJ. It is through these         and used for hiring was similar to language in
efforts that the Office of Investigations is able to      materials that the senior officer had received from
thoroughly identify vulnerabilities, deficiencies, and    her former colleagues who then applied for and
wrongdoing that could negatively impact the SEC’s         obtained the positions.
programs and operations.
                                                          In September 2013, the OIG referred the report of
The Office of Investigations manages the OIG              its investigation to management for consideration
Hotline, which is available 24 hours a day, 7 days        of administrative action. In response to the OIG’s
a week, to receive and process tips and complaints        report, during this semiannual reporting period,
about fraud, waste, or abuse related to SEC pro­          management verbally counseled two senior officers




                                                          O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   13
about the need to remain vigilant in their adher­        The OIG investigation found that employees of
ence to merit system hiring principles and personnel     the subcontractor located outside the United States
practices, especially when hiring former colleagues.     appeared to have accessed the SEC computer system
                                                         and its data, potentially including personally identifi­
Violations of SEC Ethics Rules                           able information. On learning that the subcontractor
(Report No. OIG-594)                                     employees appeared to have accessed the system in
Our previous Semiannual Report also described the        September 2011, the SEC notified all SEC employ­
results of the OIG’s investigation of an SEC Senior      ees that this access occurred and offered them 12
Officer’s (SO) failure to report, on financial disclo­   months of credit monitoring paid for by the agency.
sure statements, the securities holdings of the SO’s
spouse and to comply with the SEC’s supplemental         The OIG investigation found that the contractor
ethics rules about employee financial transactions.      had failed to inform the SEC that the subcontractor
Through its investigation, the OIG found evidence        employees had access to the SEC computer system
that the SO had not complied with various provi­         and may have misled the SEC about this issue. The
sions of those rules. The OIG also identified evidence   OIG investigation further found that the contrac­
of a possible conflict of interest and found that the    tor had not provided the names of the subcontrac­
SO had disclosed nonpublic information to the            tor employees to the SEC for background checks,
SO’s spouse.                                             as required by the contract, and also had failed to
                                                         provide the SEC with executed nondisclosure agree­
In September 2013, after the United States Attor­        ments for those employees.
ney’s Office (USAO) declined prosecution, the
OIG reported its investigative findings to SEC           The OIG referred information from its investiga­
management. In response to the OIG’s report,             tion concerning the conduct of the SEC contractor
during this reporting period, management decided         and its principal to the DOJ as possible violations
to suspend the SO for 14 days, and the SO served         of civil and criminal law. In 2013, the DOJ declined
the suspension.                                          to open a civil or criminal matter as a result of the
                                                         OIG’s investigation. Accordingly, the OIG closed its
                                                         investigation.
INVESTIGATIONS CONDUCTED
                                                         Violations of SEC Supplemental Ethics
Allegations of Improper Disclosure of                    Rules by an SEC Staff Accountant
Nonpublic and Personally Identifiable                    (Case No. OIG-585)
Information by an SEC Contractor                         The OIG conducted an investigation into whether an
(Case No. OIG-574)                                       SEC staff accountant held certain securities that SEC
The OIG investigated allegations that an SEC con­        employees were prohibited from owning under the
tractor allowed employees of a subcontractor that        SEC’s Supplemental Ethics Rules and failed to report
was based outside of the United States to access an      those holdings on government financial disclosure
SEC computer system and its data, which contained        forms.
personal information of SEC employees, including
their financial holdings. The SEC had entered into       The OIG found that the staff accountant held several
this contract, through which the contractor was to       securities that became prohibited in August 2010,
provide the SEC with a computer system to support        when the Supplemental Ethics Rules went into effect.
the SEC’s ethics program, on June 30, 2009.              In addition, we learned during our investigation that
                                                         the staff accountant had purchased additional shares




14   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
of a prohibited holding and had failed to obtain          SEC’s electronic system for preclearing and report­
prior clearance of those transactions as required by      ing securities transactions—that he was in compli­
the Supplemental Ethics Rules. We further found           ance with the SEC’s ethics rules as of December 31,
that the staff accountant did not report this pro­        2012, when he in fact held stocks that were prohib­
hibited holding on government financial disclosure        ited under the SEC’s ethics rules. The complaint also
forms even though the value of the holding exceeded       alleged that on two occasions in February 2013, the
the reporting threshold.                                  staff accountant falsely stated that he no longer held
                                                          certain prohibited securities. As of the end of the
The OIG referred the matter to the USAO for pos­          semiannual reporting period, the criminal complaint
sible prosecution and also reported the findings of       was pending.
its investigation to SEC management. Thereafter, the
staff accountant resigned from the SEC. In February       Departing SEC Employee’s Attempt to
2014, the USAO declined prosecution of the matter.        Remove Nonpublic Information
                                                          From the SEC (Case No. OIG-600)
False Statements Related to Prohibited                    The OIG investigated allegations that a departing
Financial Holdings (Case No. OIG-598)                     SEC employee may have stolen sensitive documents.
The OIG investigated the accuracy of an SEC staff         Specifically, the OIG learned that the OSO Office
accountant’s certifications that the securities he        of Records Management Services (ORMS) had
owned were in compliance with the SEC’s Supple­           identified sensitive information in materials that
mental Ethics Rules, including rules that prohibit        were being shipped from the SEC to the employee’s
SEC employees from owning securities in entities          new employer, a private firm, and that SEC manage­
that are directly regulated by the SEC. The OIG           ment was concerned about the potential release of
also investigated whether the staff accountant had        nonpublic information.
subsequently divested the prohibited holdings as he
claimed he had done. The OIG had discovered these         The OIG reviewed the employee’s documents, iden­
issues in the course of another investigation.            tified nonpublic information, prevented information
                                                          from leaving the SEC, and recovered other non-
Through its investigation, the OIG found evidence         public information from the employee’s residence.
that the staff accountant had 1) falsely certified that   The OIG determined that this investigation did not
his holdings were in compliance with the SEC’s            uncover criminal violations and, therefore, did not
regulations when he held stock in several prohib­         refer the matter to the DOJ for possible prosecution.
ited companies; and 2) falsely claimed that he had        Further, because the employee had left the SEC, the
divested certain prohibited holdings when he had          OIG determined that a referral to management for
transferred them to a brokerage account that he           administrative action was not warranted. However,
controlled. The OIG referred the matter to the            the OIG identified certain areas that the SEC could
USAO, which accepted the case for prosecution.            improve in its employee exit process.

The USAO filed a criminal complaint against the           To address those issues, the OIG provided Investiga­
staff accountant, charging him with three counts of       tive Memorandum IM-14-001 to SEC management
making false statements to the SEC about his own­         on March 10, 2014. The ORMS had issued a new
ership of prohibited securities, and the staff accoun­    directive (“Operating Procedure 7-1e”), which
tant was arrested on November 19, 2013. The               included information about the types of documents
criminal complaint alleged that, in January 2013,         that employees could not keep or remove upon their
the staff accountant falsely certified—through the        departure from the SEC and required employees to




                                                          O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   15
complete a records clearance form. However, the           had attended or had information about the closed
OIG found that the directive did not provide for          Commission meeting. The OIG also reviewed SEC
a review of documents that a departing employee           emails, telephone and BlackBerry records, and
plans to remove from the SEC by the departing             records showing the news reporters’ access to the
employees’ division or office. Therefore, the OIG         SEC headquarters building around the time of that
recommended in IM-14-001 that the agency’s exit           closed meeting. The OIG was unable to determine
procedures and policies be revised to require the divi­   which specific individual or individuals had improp­
sions or offices of departing employees to 1) review      erly disclosed information from the closed Commis­
the documents that the employees plan to remove           sion meeting. However, the OIG determined that
from the SEC and 2) determine which documents             an SEC employee may have confirmed to one of
departing employees are authorized to remove. The         the news reporters certain nonpublic information.
OIG also recommended that this determination be           The OIG also learned during its investigation that
documented in the SEC’s Electronic Exit Program           certain Commission-related information was trans­
prior to the employees’ departure and that manage­        mitted using personal, nonsecure email. The OIG
ment advise employees, through training, correspon­       provided the results of its investigation to the agency
dence, and other means, about the revised exit pro­       for appropriate action.
cedures and their obligation to ensure that nonpublic
information is not improperly disclosed.                  Former SEC Employee’s Possession of
                                                          SEC Documents Containing Nonpublic
Management’s action on the OIG’s recommenda­              Information (Case No. OIG-610)
tions was pending at the end of the semiannual            The OIG investigated allegations that a former SEC
reporting period. The OIG’s memorandum is avail­          employee, who was a candidate for a position with
able on its website at www.sec.gov/about/offices/oig/     an SEC regional office, possessed documents con­
reports/investigations/2014/im-14-001(employee_           taining SEC nonpublic information that the former
exit_process-records_review).pdf.                         employee had obtained through his prior employ­
                                                          ment with the SEC.
Unauthorized Disclosure of Nonpublic
Information From Executive Session                        During the course of its investigation, the OIG
Commission Meeting (Case No. OIG-601)                     interviewed the former employee, who admitted
The OIG opened an investigation into concerns             possessing copies of SEC examination reports that
about the unauthorized disclosure of nonpub­              he had worked on while employed with the SEC.
lic information from an Executive Session of a            The former employee agreed to cooperate with the
“closed” (nonpublic) Commission meeting. Specifi­         investigation, and the OIG subsequently recovered
cally, the OIG was notified that information about        from that former employee the documents contain­
the Commission’s deliberations and voting during          ing nonpublic information. The OIG determined
the closed Commission meeting had been disclosed,         that one of the documents that the former employee
without authorization, to a news reporter. Subse­         had copied and taken with him when he left the
quently, nonpublic information was included in a          SEC was marked “Privileged & Confidential.”
news article by several reporters that was published
before information about the closed Commission            The OIG referred the matter to the USAO for pos­
meeting was made public.                                  sible prosecution and the USAO declined prosecu­
                                                          tion. The OIG provided a report of its findings to
During its investigation, the OIG interviewed             SEC management for informational purposes and
numerous staff members and Commissioners who              closed its investigation.




16   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
      REVIEW OF LEGISLATION

        AND REGULATIONS



D
        uring this semiannual reporting period, the OIG reviewed and monitored
        the following legislation and regulations:



P.L. 113-6
Consolidated and Further Continuing Appropriations Act, 2013, Section 3003
(enacted March 26, 2013), and P.L. 113-76, Section 742, Consolidated Appropria­
tions Act, 2014 (enacted January 18, 2014) (requiring Federal agencies to report
conference costs and other conference data to Inspectors General);

5 C.F.R. Part 2641
Post-Employment Conflict of Interest Restrictions, Appendix A - Positions Waived
From 18 U.S.C. §§ 207(c) and (f) (79 FR 1, January 2, 2014) (revoking certain
exemptions of senior employee positions at the SEC from certain criminal post-
employment restrictions); and

17 C.F.R. Part 200
Organization; Conduct and Ethics; and Information and Requests (79 FR 1734,
January 10, 2014) (amending SEC rules to reflect that the SEC’s General Counsel
is responsible for investigating allegations of professional misconduct by Commis­
sion staff and, where appropriate, making referrals to state professional boards or
societies).




                                             O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   17
                    MANAGEMENT DECISIONS



     STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS

     Management decisions have been made on all audit reports issued before the beginning
     of this reporting period.



     REVISED MANAGEMENT DECISIONS

     No management decisions were revised during the period.



     AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

     The OIG agrees with all significant management decisions regarding audit
     recommendations.



     INSTANCES WHERE THE AGENCY REFUSED OR FAILED TO PROVIDE INFORMATION TO THE OIG

     During this reporting period, there were no instances where the agency unreasonably
     refused or failed to provide information to the OIG.




18    |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                                            TABLES
Table 1. List of Reports: Audits and Evaluations

     Report Number                                  Title                                           Date Issued

          517         Controls Over the SEC’s Government Purchase Card Program                       3/28/2014

          522         Federal Information Security Management Act:
                      Fiscal Year 2013 Evaluation                                                    3/31/2014

        1-27-14       Inspector General’s Report to OMB on the SEC’s Implementation of
      Letter report   Purchase Card Program Audit Recommendations                                    1/27/2014

        2-24-14       Inspector General’s Report of the SEC’s Fiscal Year 2013
      Letter report   Compliance with the Improper Payments Information Act                          2/24/2014




Table 2. Reports Issued with Costs Questioned or Funds Put to Better Use
(Including Disallowed Costs)

                                                                            No. of Reports               Value

A. Reports issued prior to this period

      For which no management decision had been made on
      any issue at the commencement of the reporting period                          0                     $0

      For which some decisions had been made on some issues at the
      commencement of the reporting period                                           0                     $0

B.    Reports issued during this period                                              0                     $0

                                           Total of Categories A and B               0                     $0

C.    For which final management decisions were made during this period              0                     $0

D.    For which no management decisions were made during this period                 0                     $0

E.    For which management decisions were made on some issues
      during this period                                                             0                     $0

                                           Total of Categories C, D, and E           0                     $0




                                                            O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   19
Table 3. Reports With Recommendations on Which Corrective Action Has Not Been Completed
During this semiannual reporting period, SEC management provided the OIG with documentation to
support the implementation of OIG recommendations. In response, the OIG closed 27 recommendations
related to 12 Office of Audits and Office of Investigations reports. The following table lists recommenda­
tions open 180 days or more.

Report Number and Title       Rec. No.   Issue Date              Recommendation Summary

489 - 2010 Annual FISMA          5        3/3/2011    Complete the logical access integration of the
Executive Summary                                     Homeland Security Presidential Directive 12 card no
Report                                                later than December 2011, as reported to the OMB
                                                      on December 31, 2010.

501 - 2011 Annual FISMA          1       2/2/2012     Develop and implement a detailed plan to review
Executive Summary                                     and update the OIT’s security policies and pro­
Report                                                cedures and to create OIT security policies and
                                                      procedures for areas that lack formal policy and
                                                      procedures.

501 - 2011 Annual FISMA          13      2/2/2012     Complete the implementation of the technical solu­
Executive Summary                                     tion for linking multi-factor authentication to Per­
Report                                                sonal Identity Verification (PIV) cards for system
                                                      authentication and require use of the PIV cards as a
                                                      second authentication factor by December 2012.

512 - 2012 FISMA                 1       3/29/2013    Revise the information technology security assess­
Executive Summary                                     ment procedures to ensure they are consistent with
Report                                                current practices and include language to imple­
                                                      ment continuous monitoring and requirements for
                                                      ongoing assessment of a subset of critical security
                                                      controls.

514 - Audit of the SEC’s         4       3/29/2013    Complete a review of nondormant registrant
Filing Fees Program                                   accounts according to the cost benefit analysis that
                                                      the Office of Financial Management devised.

518 – Use of the                 4       6/6/2013     Consider options for allowing the Division of Risk,
Current Guidance on                                   Strategy, and Financial Innovation (now the Divi­
Economic Analysis in                                  sion of Economic and Risk Analysis) to include
SEC Rulemakings                                       confidential information in the SEC’s rules without
                                                      releasing it to the public. The Office of the General
                                                      Counsel and the Division should prepare a memo­
                                                      randum that documents a process, which they have
                                                      vetted, to describe any potential new approaches
                                                      to handling such information.




20   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
Table 4. Summary of Investigative Activity for the Reporting Period of
October 1, 2013 to March 31, 2014

   Investigative Caseload                                                                              Number

   Cases Open at Beginning of Period                                                                       17
   Cases Opened During Period                                                                             10
   Cases Closed During Period                                                                              4
   Total Open Cases at End of Period                                                                      23



   Criminal and Civil Investigative Activities                                                         Number

   Referrals for Prosecution                                                                                8
     Accepted                                                                                               2
     Declined                                                                                               7*
   Indictments/Informations                                                                                 1
   Arrests                                                                                                  1



   Administrative Investigative Activities                                                             Number

   Suspensions                                                                                              1
   Reprimands/Warnings/Other Actions                                                                        2



   Complaints Received                                                                                 Number
   Hotline Complaints                                                                                    211
   Other Complaints                                                                                      485
   Total Complaints During Period                                                                        696
*One declined matter was referred for prosecution in a previous reporting period.




                                                              O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   21
Table 5. References to Reporting Requirements of the Inspector General Act

     Section      Inspector General Act Reporting Requirement                                      Pages

     4(a)(2)      Review of Legislation and Regulations                                                 17

     5(a)(1)      Significant Problems, Abuses, and Deficiencies                            6, 9–11, 14–16

     5(a)(2)      Recommendations for Corrective Action                                        9–11, 15–16

     5(a)(3)      Prior Recommendations Not Yet Implemented                                             20

     5(a)(4)      Matters Referred to Prosecutive Authorities                                    14–16, 21

     5(a)(5)      Summary of Instances Where the Agency
                  Unreasonably Refused or Failed to Provide Information to the OIG                      18

     5(a)(6)      List of OIG Audit and Evaluation Reports Issued During the Period                     19

     5(a)(7)      Summary of Significant Reports Issued During the Period                      9–11, 14–16

     5(a)(8)      Statistical Table on Management Decisions with Respect to Questioned Costs            19

     5(a)(9)      Statistical Table on Management Decisions on
                  Recommendations That Funds Be Put to Better Use                                       19

     5(a)(10)     Summary of Each Audit, Inspection, or Evaluation Report Issued Before the Beginning
                  of the Reporting Period for Which No Management Decision Has Been Made                18

     5(a)(11)     Significant Revised Management Decisions                                              18

     5(a)(12)     Significant Management Decisions With Which the Inspector General Disagreed           18

     5(a)(14)(B) Date of the Last Peer Review Conducted by Another OIG                                  23




22    |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
                                                APPENDIX A


     PEER REVIEWS OF OIG OPERATIONS

PEER REVIEW OF THE SEC OIG’S                             PEER REVIEW OF THE SEC OIG’S
AUDIT OPERATIONS                                         INVESTIGATIVE OPERATIONS
In accordance with the CIGIE quality control and         During the semiannual reporting period, the SEC
assurance standards, an OIG’s audit functions are        OIG did not have an external peer review of its
assessed by an external OIG audit team approxi­          investigative operations. The most recent peer
mately every three years. The Legal Services Corpo­      review of the SEC OIG’s investigative operations
ration (LSC) OIG conducted an assessment of the          was conducted by the OIG of the U.S. Equal
Office of Audit’s system of quality control for the      Employment Opportunity Commission (EEOC).
period ending March 31, 2012. The review focused         The EEOC OIG issued its report on the SEC OIG’s
on whether the SEC OIG established and complied          investigative operations in July 2007. That report
with a system of quality control that is suitably        concluded that the SEC OIG’s system of quality
designed to provide the SEC OIG with a reasonable        for the investigative function conformed to the
assurance of conforming with applicable profes­          professional standards established by the Presi­
sional standards.                                        dent’s Council on Integrity and Efficiency and the
                                                         Executive Council on Integrity and Efficiency (now
On August 23, 2012, the LSC OIG issued its report,       CIGIE).
concluding that the SEC OIG complied with the
system of quality control and that it was suitably       A peer review of the investigative operations of the
designed to provide the SEC OIG with reasonable          SEC OIG is planned for FY 2014.
assurance of performing and reporting in conformity
with applicable government auditing standards in
all material respects. Federal audit organizations can
receive a rating of “pass,” “pass with deficiencies,”
or “fail.” The SEC OIG received a “pass” rating,
and no recommendations were made. Further, there
are no outstanding recommendations from previous
peer reviews of our audit organization.

The peer review report is available on the SEC
OIG’s website at www.sec.gov/about/offices/oig/
reports/reppubs/other/finalpeerreviewreport-sec.pdf.




                                                         O C TO B E R 1 , 2 01 3 – M A R C H 3 1 , 2 01 4   |   23
              OIG CONTACT INFORMATION


          Help ensure the integrity of SEC operations. Report to the OIG suspected fraud, waste,
          or abuse in SEC programs or operations as well as SEC staff or contractor misconduct.
          Contact the OIG by:

          PHONE	           Hotline          877.442.0854
                           Main Office      202.551.6061

          WEB-BASED        www.sec.gov/about/offices/oig/inspector_general_investigations_hotline.shtml
          HOTLINE


          FAX	             202.772.9265

          MAIL	            Office of Inspector General
                           U.S. Securities and Exchange Commission
                           100 F Street, NE, Washington, DC 20549–2977

          EMAIL	           oig@sec.gov



          Information received is held in confidence upon request. While the OIG encourages com­
          plainants to provide information on how they may be contacted for additional information,
          anonymous complaints are also accepted.




24   |   O I G S E M I A N N UA L R E P O RT TO CO N G R E SS
